No.______
__________________________
IN THE
SUPREME COURT OF THE UNITED STATES
____________________________
LUIS GOMEZ-CASTRO, Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
____________________________
On Petition for Writ of Certiorari to the
Tenth Circuit Court of Appeals
___________________________
APPENDIX
___________________________

i

App. 1

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

839 Fed.Appx. 238
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 10th Cir.
Rule 32.1.
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Luis GOMEZ-CASTRO, Defendant - Appellant.

Attorneys and Law Firms
Elizabethanne Claire Stevens, Esq., Jennifer Paisner
Williams, Office of the United States Attorney, Salt Lake
City, UT, for Plaintiff-Appellee
Kathleen A. Lord, Lord Law Firm, Denver, CO, for
Defendant-Appellant
Before HOLMES, MURPHY, and PHILLIPS, Circuit
Judges.

No. 18-4090
|
FILED December 23, 2020
ORDER AND JUDGMENT*
Synopsis
Background: Defendant was convicted in the United
States District Court for the District of Utah, No.
2:16-CR-00267-DN-1), David Nuffer, J., of possession of
methamphetamine with intent to distribute, and was
sentenced to 151 months’ imprisonment. Defendant
appealed.

Holdings: The Court of Appeals, Holmes, Circuit Judge,
held that:
it would apply plain error standard of review, rather than
de novo review, to District Court’s challenged jury
instructions;
District Court did not commit plain error by repeatedly
instructed jurors they could talk about evidence before
formal deliberations;
District Court did not abuse its discretion by denying
defendant a new trial on basis of newly discovered
evidence; and
District Court did not commit clear or obvious error by
imposing two-level enhancement for obstruction of justice
when sentencing defendant.

*

This order and judgment is not binding precedent,
except under the doctrines of law of the case, res
judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with
Federal Rule of Appellate Procedure 32.1 and
10th Circuit Rule 32.1.

Jerome A. Holmes, Circuit Judge
Defendant-Appellant Luis Gomez-Castro appeals from
his conviction and sentence for possession of
methamphetamine with intent to distribute, pursuant to
21 U.S.C. § 841(a)(1) and
18 U.S.C. § 2. Mr.
Gomez-Castro raises three arguments on appeal: first, that
the district court committed three reversible errors in its
jury instructions; second, that the district court abused its
discretion in denying Mr. Gomez-Castro’s motion for a
new trial; and third, that the district court erred in
imposing a sentence enhancement for obstruction of
justice.
18
Exercising jurisdiction under 28 U.S.C. § 1291 and
U.S.C. § 3742, we reject Mr. Gomez-Castro’s three
arguments and affirm his conviction and sentence.

Affirmed.
Procedural Posture(s): Appellate Review.
*240 (D.C. No. 2:16-CR-00267-DN-1) (D. Utah)

I
In early 2015, law enforcement agents of the Federal

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

1

App. 2

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

Bureau of Investigation (“FBI”) began investigating Mr.
Gomez-Castro—a resident of North Salt Lake, Utah—for
suspected drug trafficking. As part of the investigation, a
confidential informant named Reuban Morales provided
FBI agents with Mr. Gomez-Castro’s phone number. On
August 14, 2015, the FBI obtained authorization to install
a thirty-day wiretap on Mr. Gomez-Castro’s phone.
The wire intercepted a series of twenty-nine phone calls
by Mr. Gomez-Castro from September 8 to September 12,
2015, in which he arranged to purchase methamphetamine
from a Mr. Fernando Lopez and another suspected
supplier. At one point during his calls to Mr. Lopez, Mr.
Gomez-Castro indicated that a load of methamphetamine
was soon headed to the local area. Based on that
statement, FBI agents made plans to seize the drugs and
arrest Mr. Gomez-Castro. The agents enlisted the
confidential informant, Mr. Morales, *241 to help. At the
FBI’s direction, Mr. Morales ordered methamphetamine
from Mr. Gomez-Castro.
On the morning of September 12, 2015, Mr.
Gomez-Castro made several calls to the suspected
supplier and arranged to meet him at a house early that
afternoon. Mr. Gomez-Castro also called Mr. Morales and
told him to come to his apartment. Not long after he
arrived, both men left the apartment complex and drove
separately to meet the suspected supplier. Two local
police officers followed them to the meeting place. When
they arrived at the house, they walked down a short
driveway and met someone standing outside. The police
officer surveilling the men did not want to be spotted, so
he drove past the house and parked in a location where he
could see Mr. Gomez-Castro’s car but not see what
exactly the three individuals were doing in the driveway.
Nonetheless, after a fairly short period of time, the police
officer saw Mr. Gomez-Castro and Mr. Morales walk
back toward their vehicles and drive away separately from
the house.
At approximately 2:00 p.m. on September 12, 2015, law
enforcement officers executed a search warrant for Mr.
Gomez-Castro’s apartment. When they arrived, the
officers
found
Mr.
Gomez-Castro
flushing
methamphetamine down the toilet. Nonetheless, they
managed to recover about forty-two grams of the drug.
After his arrest, Mr. Gomez-Castro offered to work as an
FBI informant. FBI agents initially agreed to this
proposal, but within a few months they ended the
arrangement, purportedly because Mr. Gomez-Castro put
“very minimal effort” into it. R., Vol. III, at 356 (Trial
Tr., dated Oct. 25, 2017).

II

A
On June 1, 2016, the government indicted Mr.
Gomez-Castro on one count of possession of
methamphetamine with intent to distribute, in violation of
21 U.S.C. § 841(a)(1). The indictment also alleged that
Mr. Gomez-Castro committed this drug-trafficking
offense under an aiding-and-abetting theory, pursuant to
18 U.S.C. § 2.
At trial, Mr. Gomez-Castro testified that his girlfriend,
Ms. Elizabeth Figueroa, had become an informant for the
Ogden, Utah Police Department to “work off her
[drug-related] charges.” R., Vol. III at 388 (Trial Tr.,
dated Oct. 25, 2017). To help Ms. Figueroa do so, Mr.
Gomez-Castro claimed that he tried to obtain information
on “people who had something so that I could tell her and
she could give [the Ogden, Utah police] the information.”
Id. at 388. Mr. Gomez-Castro further claimed that he had
also previously worked directly with the Ogden Police
Department as an informant, although not at the time of
his arrest. Still, Mr. Gomez-Castro testified that he
thought that by arranging for a drug deal for Mr. Morales
he could “get involved with people who had things so that
I could find out who had them so that I could help [Ms.
Figueroa].” Id. at 390.
Mr. Gomez-Castro also testified that Mr. Morales planted
the methamphetamine in his apartment, and that he did
not know it was there until the police arrived to execute
the search warrant. According to Mr. Gomez-Castro, after
meeting with the suspected supplier he drove around for
twenty minutes “killing time” while Mr. Morales returned
to the apartment and left a box with Ms. Figueroa without
explanation. Id. at 390–91. Mr. Gomez-Castro insisted
that once he returned home he repeatedly tried to call Mr.
Morales, but he never answered, and that he only opened
the box—which contained the methamphetamine—once
he saw the police arriving.
*242 On cross-examination, when questioned about his
alleged law enforcement informant handler in the Ogden
Police Department, Mr. Gomez-Castro could only
remember his first name, “Adam.” Id. at 417. When asked
about the names of the people whose contact information
he provided to Adam, he was unable to remember any,
other than an “Armando.” Id. at 417–18. He was also
questioned about his interview with an FBI agent on
September 12 soon after his arrest. In particular, Mr.
Gomez-Castro was asked why he did not tell the FBI

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

2

App. 3

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

agent that Mr. Morales had dropped off the
methamphetamine in a box while he was gone, or that he
was trying to help Ms. Figueroa work off charges from
the Ogden police. Mr. Gomez-Castro replied, “[the FBI
agent] was the one that was asking the questions there,
and I couldn’t do anything. He was the one asking the
questions, and I just had to answer.” Id. at 419–20.
The government called three witnesses in rebuttal. The
first witness was an Ogden Police Department lieutenant
who testified that he had never worked with a detective
named “Adam,” and that he knew of no detectives named
“Adam” on the Ogden Police Department’s
Weber-Morgan
Narcotics
Strike
Force,
a
multi-jurisdictional task force in Utah devoted to
investigating drug offenses. He further testified that based
on his review of the written records of informants
working for the Crime Reduction Unit and the
Weber-Morgan Narcotics Strike Force, no records
indicated that either Mr. Gomez-Castro or Ms. Figueroa
had been officially signed up as informants. However, the
lieutenant acknowledged that a person could work as an
informant without being signed up formally.
The government also called a Salt Lake City police
officer who had arrested Ms. Figueroa for obstruction of
justice and possession of methamphetamine in October
2014. The officer could not recall if Ms. Figueroa was
ever officially signed up as an informant, but when asked
if Ms. Figueroa ever worked for him the officer replied,
“she never did anything that we would consider [ ]
working for us.” R., Vol. III, at 450 (Trial Tr., dated Oct.
26, 2017).
Finally, the government called the FBI agent leading the
investigation to testify about the numerous drug-related
phone calls made by Mr. Gomez-Castro and intercepted
by the wiretap. Moreover, the agent testified that he
reviewed Mr. Gomez-Castro’s phone records and found
no evidence that Mr. Gomez-Castro had tried
unsuccessfully to call Mr. Morales numerous times after
purportedly discovering the box left at his apartment. The
agent also said that when he interviewed Mr.
Gomez-Castro after his arrest on September 12, Mr.
Gomez-Castro made no mention that he had worked, or
was working, as an informant for the Ogden Police
Department.

preliminary matter, we summarize each set of instructions
here.
First, throughout the trial proceedings, the district court
repeatedly instructed the jurors that they could discuss the
evidence before formal deliberations began as long as
they were all together in the jury room and no one else
was present. For example, in its written preliminary jury
instructions, the court informed the jurors:

[U]ntil this trial is over, the only
time that you may discuss the
evidence is when you are all
together so that (1) each of you is
present during the discussion, (2) in
the jury room, (3) with no one else
present. If one of those three *243
conditions is not met, you may not
discuss the case. That means that
under any other circumstances you
are not to discuss the case with
fellow jurors or anyone else or
permit anyone to discuss it with
you.

Supp. R., Vol. VI, at 43 (Prelim. Jury Instrs., Instr. No.
13, dated Oct. 24, 2017). At least twice throughout the
trial, the district court judge gave similar instructions to
the jurors. Mr. Gomez-Castro never objected to the
instructions during his trial.
Second, in connection with the allegation that Mr.
Gomez-Castro aided and abetted the possession of
methamphetamine with the intent to distribute, the district
court provided the following final instructions to the jury:

B
Partially at issue in this appeal are three instructions given
to the jury throughout Mr. Gomez-Castro’s trial. As a

You may also find the defendant
guilty if you find he aided and
abetted another in the commission
of the crime charged. Aiding and
abetting is simply another way of
committing the offenses charged.
The aiding and abetting statute,
Section 2(a) of Title 18 of the
United States Code provides that:
[w]hoever commits an offense
against the United States or aids,
abets, counsels, commands, induces
or procures its commission, is

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

3

App. 4

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

punishable as a principal.

Supp. R., Vol. VI, at 71 (Final Jury Instrs., Instr. No. 38,
dated Oct. 17, 2017). At trial, defense counsel lodged
several
general
objections
to
the
court’s
aiding-and-abetting instructions but did not specify the
grounds for the objection.
Finally, the district court supplied the following
instructions on the elements of constructive possession for
Mr. Gomez-Castro’s charge for possession of
methamphetamine with intent to distribute:
As I have instructed you, you must determine whether
the defendant “possessed” the controlled substance.
The legal concept of possession may differ from the
everyday usage of the term, so I will explain it in some
detail.
Actual possession is what most of us think of as
possession; that is having physical custody or control of
an object. For example, if you find that the defendant
had the controlled substance on the defendant’s person,
you may find that the defendant had possession of the
controlled substance. However, a person need not have
actual physical custody of an object in order to be in
legal possession of it. If an individual has the ability to
exercise substantial control over an object that he does
not have in his physical custody, then he is in
possession of that item.
Possession of a controlled substance cannot be found
solely on the grounds that the defendant was near or
close to the controlled substance. Nor can it be found
simply because the defendant was present at a scene
where the controlled substance was involved, or solely
because the defendant associated with a person who
does control the controlled substance or the property
where the controlled substance is found. However,
these factors may be considered by you, in connection
with all other evidence, in making your decision
whether the defendant possessed the controlled
substance.
Supp. R., Vol. VI, at 63 (Final Jury Instrs., Instr. No. 30,
dated Oct. 17, 2017). Mr. Gomez-Castro did not object to
these instructions during his trial.

C
On October 26, 2017, a jury found Mr. Gomez-Castro

guilty of possession of methamphetamine with intent to
distribute. Sometime in mid-November 2017, before his
sentencing, Mr. Gomez-Castro claimed that he finally
remembered, for the first time, the name of the Ogden
Police Department officer for whom he *244 had worked
as an informant: “Don Jensen.” R., Vol. I., at 154 (Mot.
for New Trial, dated Jun. 11, 2018). An investigator later
tracked down a “Don Johnson,” a former Weber-Morgan
Narcotics detective in the Ogden Police Department. R.,
Vol. I, at 139 (Decl. of Craig Watson, dated May 10,
2018). Mr. Johnson indicated that he had been a member
of the Weber-Morgan Narcotics Task Force in 2013 and
2014, and he recalled having used an informant during
that period by the name of Luis Castro. The investigator
sent a picture of Mr. Gomez-Castro to Mr. Johnson, and
Mr. Johnson confirmed that he had used the person in the
photo as a confidential source.
Mr. Gomez-Castro’s sentencing hearing centered in part
on his alleged work as an informant for Mr. Johnson and
the Ogden Police Department. The presentence
investigation report (“PSR”) recommended a two-level
enhancement in Mr. Gomez-Castro’s Guidelines offense
level. With this enhancement, his total advisory
Guidelines sentencing range was 151 to 188 months of
imprisonment.1 The recommended sentence enhancement
was based on the prosecution’s assertion that Mr.
Gomez-Castro had committed perjury at trial—namely,
by falsely claiming to have worked as a police informant.
1

The U.S. Probation Office used the 2016 edition
of the Guidelines in calculating Mr.
Gomez-Castro’s advisory sentencing range. Mr.
Gomez-Castro does not challenge this decision.
Therefore, we also rely on this edition of the
Guidelines in resolving this appeal.

Mr. Gomez-Castro objected to the PSR’s recommended
enhancement and indicated that the newly discovered Mr.
Johnson could confirm his claims. In response, the PSR
stated that Mr. Gomez-Castro had testified at trial that he
was working for an officer named “Adam,” not “Don.”
Moreover, the PSR concluded that even if the court were
to find that Mr. Gomez-Castro was not deliberately
untruthful on this matter, the court could still determine
that an obstruction-of-justice enhancement was
appropriate in light of other aspects of Mr.
Gomez-Castro’s trial testimony. At the sentencing
hearing, Mr. Johnson testified that Mr. Gomez-Castro
began working for him as an informant sometime around
March 2014 and continued his work for somewhere
between six months to a year. Mr. Johnson further
testified that although, ideally, task force members
formally signed up informants, it was not uncommon for

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

4

App. 5

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

them to fail to do so.
The district court concluded that Mr. Gomez-Castro was
subject to the two-level enhancement for obstruction of
justice. The court reasoned that the testimony presented at
the hearing established that Mr. Gomez-Castro never had
any formal arrangement with the Weber-Morgan Task
Force, that he had no formal authorization to purchase
drugs, that any relationship he had with Don Johnson
terminated well before the transaction in the current case,
and that there was no agent or officer named “Adam”
associated with the Task Force—despite Mr.
Gomez-Castro’s various claims at trial to the contrary.
The court sentenced Mr. Gomez-Castro to a term of 151
months’ imprisonment.
Mr. Gomez-Castro then filed a motion for a new trial. He
argued that his recollection of Mr. Johnson’s name after
trial was newly discovered evidence justifying a new trial
under Federal Rule of Criminal Procedure 33. The
government countered that a new trial was not warranted
because the sudden recollection of Mr. Johnson’s name
after trial did not make it newly discovered evidence.
Moreover, the government argued that Mr. Johnson’s
testimony would not have changed the outcome of the
trial because it merely confirmed several dispositive facts:
that on September *245 12, 2015, Ms. Figueroa was not
working off charges, that Mr. Gomez-Castro was not
working for Mr. Johnson and had not worked for him for
more than a year, that Mr. Gomez-Castro had never been
authorized by Mr. Johnson to directly participate in drug
deals, and that Mr. Gomez-Castro never worked for a
detective named “Adam.”
On July 6, 2018, the district court denied Mr.
Gomez-Castro’s motion for a new trial “for the reasons
stated in the Government’s Response.” R., Vol. I, at 242
(Order Denying Mot. for New Trial, filed July 6, 2018).
Mr. Gomez-Castro then filed this timely appeal from his
conviction and sentence.

III
Mr. Gomez-Castro raises three claims in his appeal. First,
he argues that three jury instructions from the district
court amounted to reversible error: specifically, the
court’s instruction to the jurors authorizing them to
discuss the evidence before formal deliberations, and its
instructions concerning aiding-and-abetting liability and
constructive possession—both of which allegedly omitted
required intent elements. Second, he contends that the
district court abused its discretion in denying his motion

for a new trial. Finally, he insists that the district court
erred in imposing a sentence enhancement for obstruction
of justice. We consider—and reject—each of Mr.
Gomez-Castro’s claims.

A
Mr. Gomez-Castro first argues that the three jury
instructions were erroneous. We address each instruction
individually. But, we begin by discussing the standard of
review that applies to all three jury-instruction claims.

1
Ordinarily, we “review de novo the jury instructions as a
whole ... to determine if they accurately state the
governing law and provide the jury with an accurate
understanding of the relevant legal standards and factual
issues in the case.” United States v. Vernon, 814 F.3d
1091, 1103 (10th Cir. 2016) (quoting United States v.
Richter, 796 F.3d 1173, 1185 (10th Cir. 2015)). Yet, as
we discuss below, Mr. Gomez-Castro failed to properly
object during his trial to all three instructions that he
challenges here on appeal. That is, he failed to “inform
the court of [his] specific objection” before the jury
retired to deliberate. FED. R. CRIM. P. 30(d). Therefore,
we shall review any alleged error in the instructions under
United States v.
the plain error standard of review. See
Visinaiz, 428 F.3d 1300, 1308 (10th Cir. 2005) (“When
no objection to a jury instruction was made at trial, the
adequacy of the instruction is reviewed de novo for plain
error.”); see also United States v. Zapata, 546 F.3d 1179,
1190 (10th Cir. 2008) (noting that “a generalized
objection to an instruction is insufficient to preserve a
specific objection on appeal” and is “reviewed only for
plain error”).
A party seeking relief from a plain error must show “(1)
an error, (2) that is plain, which means clear or obvious
under current law, and (3) that affects substantial rights.”
United States v. McGehee, 672 F.3d 860, 876 (10th
United States v. Cooper, 654 F.3d
Cir. 2012) (quoting
1104, 1117 (10th Cir. 2011)). “An error seriously affects
the defendant’s substantial rights, as those terms are used
in the plain-error test, when the defendant demonstrates
‘that there is a reasonable probability that, but for the
error claimed, the result of the proceeding would have
been different.’ ” United States v. Rosales-Miranda, 755

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

5

App. 6

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

F.3d 1253, 1258 (10th Cir. 2014) (quoting *246
United States v. Mendoza, 698 F.3d 1303, 1310 (10th
Cir. 2012)).

long as they were all together in the jury room and no one
else was present. In its written preliminary jury
instructions, the court instructed the jurors:

If these three factors are met, a court may correct the error
on appeal if “it seriously affects the fairness, integrity, or
United
public reputation of judicial proceedings.”
States v. Cordery, 656 F.3d 1103, 1105 (10th Cir. 2011);
see also United States v. Winder, 557 F.3d 1129, 1136
(10th Cir. 2009) (“Under the plain error standard, ‘even if
a defendant demonstrates an error that is plain, we may
only take corrective action if that error not only prejudices
the defendant’s substantial rights, but also seriously
affects the fairness, integrity, or public reputation of
judicial proceedings.’ ” (quoting United States v.
Rivas-Macias, 537 F.3d 1271, 1281 (10th Cir. 2008))).
Mr. Gomez-Castro concedes that he failed to object to
two of the instructions—the one authorizing the jurors to
discuss the evidence before formal deliberations and the
one addressing constructive possession. At trial, Mr.
Gomez-Castro lodged a general objection to the
instructions on aiding-and-abetting liability. Yet he never
specified “the grounds for the objection.” FED. R. CRIM.
P. 30(d). “Because the purpose of the objection is to give
the court an opportunity to correct any mistake before the
jury enters deliberations, an excessively vague or general
objection to the propriety of a given instruction is
Medlock
insufficient to preserve the issue for appeal.”
v. Ortho Biotech, Inc., 164 F.3d 545, 553 (10th Cir. 1999)
(citation omitted).

[U]ntil this trial is over, the only
time that you may discuss the
evidence is when you are all
together so that (1) each of you is
present during the discussion, (2) in
the jury room, (3) with no one else
present. If one of those three
conditions is not met, you may not
discuss the case. That means that
under any other circumstances you
are not to discuss the case with
fellow jurors or anyone else or
permit anyone to discuss it with
you.

Supp. R., Vol. VI, at 42 (Prelim. Jury Instrs., Instr. No.
13, dated Oct. 24, 2017). Later, during the trial, the
district court judge twice reiterated these instructions in
similar terms. For example, on the second day of trial the
district court judge said:

Remember you may not discuss the
evidence in the case, and you don’t
have any evidence yet so don’t
worry about this right now. But you
have to be present in the jury room,
everybody all present, no one else
present, door closed, then you can
discuss the evidence.

Accordingly, in light of Mr. Gomez-Castro’s failure to
properly object at trial to the three jury instructions at
issue, we review all three instructions under the plain
error standard of review.

2
Mr. Gomez-Castro first contends that the district court
committed reversible plain error when it repeatedly
instructed jurors that they could talk about the evidence in
the case before formal deliberations. We disagree.
Instead, we conclude that this claim fails to satisfy the
second prong of plain-error review, because any alleged
error in these instructions was not “clear or obvious under
McGehee, 672 F.3d at 876.
current law.”
At several points during the proceedings the district court
informed the jurors that they could discuss the trial
evidence before formal deliberations had commenced, so

*247 Supp. R., Vol. III, at 146 (Trial Tr., dated Oct. 25.
2017); see also id. at 294–95 (Trial Tr., dated Oct. 25
2017).
Mr. Gomez-Castro argues that these instructions are
“contrary to longstanding and well-established law.”
Aplt.’s Opening Br. at 17. Yet he cites no Tenth Circuit or
Supreme Court precedent to this effect. Instead, in his
opening brief, he cites only one case from another circuit
court, decided more than six decades ago, that merely
notes “the generally accepted principle that it is improper
for jurors to discuss a case prior to its submission.”
Winebrenner v. United States, 147 F.2d 322, 329 (8th
Cir. 1945).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

6

App. 7

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

A reversible plain error must be plain, i.e., “clear or
McGehee, 672 F.3d at
obvious under current law.”
876. Mr. Gomez-Castro has failed to make this showing.
He has not provided—nor have we uncovered—any
Tenth Circuit or Supreme Court decision that holds that a
district court is prohibited from permitting jurors to
discuss evidence before formal deliberations, as the court
instructed here.2 Yet, ordinarily, for an error to be
“contrary to well-established law, either the Supreme
Court or this court must have addressed the issue.”
United States v. DeChristopher, 695 F.3d 1082, 1091
United States v.
(10th Cir. 2012) (quoting
Thornburgh, 645 F.3d 1197, 1208 (10th Cir. 2011)).
Thus, even if the jury instructions here were erroneous,
that error was hardly plain.
2

We note that at least one prior panel of this court,
in an unpublished opinion, has recently reached
the same conclusion. See United States v.
Waldron, 756 F. App’x 789, 800 (10th Cir. 2018)
(“No Tenth Circuit or Supreme Court precedent
has held that a district court commits error by
allowing jurors to discuss a case before
deliberations begin.”)

3
Mr. Gomez-Castro also challenges the district court’s jury
instructions on aiding-and-abetting liability—specifically,
the court’s failure to instruct the jury concerning the
requisite intent for such liability. We decline also to
correct this error, however, because we do not
believe—under
plain
error
review—that
Mr.
Gomez-Castro has demonstrated that the error affected his
McGehee, 672 F.3d at 876.3
“substantial rights.”
3

When reviewing challenges to jury instructions
that were forfeited at trial (that is, not raised at
trial through inadvertence or neglect) involving
claims that the instructions omit a requisite
element, we repeatedly have focused on the third
prong of plain error review—that is, the question
of whether the error affected the defendant’s
substantial rights. See, e.g.,
United States v.
Giannukos, 908 F.3d 649, 654, 658 (10th Cir.
2018) (holding that by failing to properly instruct
the jury on the definition of constructive
possession “the district court erred and that error
was plain” and “conclud[ing] that the erroneous

jury instruction affected [the defendant’s]
substantial rights”);
United States v. Kalu, 791
F.3d 1194, 1204 (10th Cir. 2015) (holding that the
district court’s failure to instruct the jury on the
intent element of fraud was “error [that] was
plain” but that the defendant “has not shown the
error affected his substantial rights”); see also
United States v. Campbell, 763 Fed. App’x
745, 748–49 (10th Cir. 2019) (unpublished);
United States v. Scott, 747 F. App’x 728, 731
(10th Cir. 2018) (unpublished);
United States
v. Martinez, 749 F. App’x 698, 708 (10th Cir.
2018) (unpublished). For example, in the
foregoing cited cases, we found that the omission
of an element amounted to clear or obvious error,
and our decisions have turned on the third prong
of the plain error analysis. And the same is true
here with respect to Mr. Gomez-Castro’s
remaining two instructional challenges.
Lastly, though Mr. Gomez-Castro does not cite to
the case—much less argue that it is applicable
here—we pause for clarity’s sake to distinguish
this situation from the one found in
Neder v.
United States, 527 U.S. 1, 119 S.Ct. 1827, 144
L.Ed.2d 35 (1999). In
Neder, the Supreme
Court held that, though it is a well-established
matter of constitutional consequence, “the
omission of an element is an error that is subject
to harmless-error analysis.”
Id. at 15, 119
S.Ct. 1827. In the instance of such an omission,
the question is “whether it appears ‘beyond a
reasonable doubt that the error complained of did
not contribute to the verdict obtained.’ ”
Id. at
15, 119 S.Ct. 1827 (quoting
Chapman v.
California, 386 U.S. 18, 24, 87 S.Ct. 824, 17
L.Ed.2d 705 (1967)). And there can be no doubt
that the burden to establish harmlessness rests
with the government. See
United States v.
Rivera, 900 F.2d 1462, 1470 n.5 (10th Cir. 1990)
(“The prosecution bears the burden of proving
that a constitutional error was harmless beyond a
reasonable doubt.”); see also
Chapman, 386
U.S. at 24, 87 S.Ct. 824 (noting that the presence
of “constitutional error ... casts on someone other
than the person prejudiced by it a burden to show
that it was harmless.”). But, importantly, the
defendant in
Neder objected at trial to the jury
instructions that omitted the requisite materiality
element of his alleged crimes. See
Neder, 527
U.S. at 6, 119 S.Ct. 1827 (“In accordance with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

7

App. 8

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

then-extant Circuit precedent and over
Neder’s objection, the District Court instructed
the jury that, to convict on the tax offenses, it
‘need not consider’ the materiality of any false
statements.” (emphasis added)). Here, however,
Mr. Gomez-Castro failed to properly object at
trial to any of the three purportedly deficient jury
instructions. For that reason, we review his
challenges to the jury instructions under the plain
error standard of review. Consequently, on the
question of prejudice, it is Mr. Gomez-Castro’s
burden to establish under the third prong of the
plain error standard that any error affected his
substantial rights—rather than the government’s
burden to establish that any error is harmless.

*248 We have made it clear before that aiding and
abetting a drug possession with intent to distribute
requires proof that “the defendant: (1) ‘willfully
associate[d] with the criminal venture,’ and (2) ‘aid[ed]
United
such venture through affirmative action.’ ”
States v. Delgado-Uribe, 363 F.3d 1077, 1084 (10th Cir.
United States v. Jones, 44 F.3d 860,
2004) (quoting
869 (10th Cir. 1995)). That is, “[t]he government must
prove, through direct or circumstantial evidence, more
than mere presence at the scene of the crime even if
coupled with knowledge that the crime is being
Jones, 44 F.3d at 869. More specifically,
committed.”
“some showing of intent to further the criminal venture
Delgado-Uribe, 363 F.3d
must be introduced at trial.”
at 1084.
Here, the government appropriately concedes that the jury
instructions were clearly or obviously erroneous (i.e.,
plainly erroneous) for not including an intent requirement.
Therefore, we move to the third prong of the plain error
standard of review: whether the error affected Mr.
Gomez-Castro’s substantial rights. Mr. Gomez-Castro
must show that this error was “prejudicial,” such that it
“affected the outcome of the district court proceedings.”
United States v. Olano, 507 U.S. 725, 734, 113 S.Ct.
1770, 123 L.Ed.2d 508 (1993). He must demonstrate “a
reasonable probability that but for [the error claimed], the
result of the proceeding would have been different.”
United States v. Dominguez Benitez, 542 U.S. 74, 82,
124 S.Ct. 2333, 159 L.Ed.2d 157 (2004) (quoting
United States v. Bagley, 473 U.S. 667, 682, 105 S.Ct.
3375, 87 L.Ed.2d 481 (1985)). Mr. Gomez-Castro argues
that the error as to the aiding-and-abetting instruction
“lessen[ed] the government’s burden of proof and

effectively depriv[ed] him of a defense to which he was
entitled and which was supported by his own testimony.”
Aplt.’s Opening Br. at 22. Thus, he insists that if the court
had included the intent requirement in its instructions,
there is a reasonable probability he would not have been
convicted.
The government counters by pointing to the extensive
evidence presented at trial to establish that Mr.
Gomez-Castro “participated in the criminal activity to
make it succeed, and not to obtain useful information for
law enforcement.” Aplee.’s Resp. Br. at 36. Among the
significant pieces of evidence that the government
highlights are the following: twenty-nine phone calls
*249 Mr. Gomez-Castro placed between September 8 and
September 12, 2015, arranging drug deals among Mr.
Morales, Mr. Lopez, and his suspected supplier;
testimony from law enforcement officers that Mr.
Gomez-Castro and Mr. Morales, after leaving the
supplier’s home on September 12, arrived back at Mr.
Gomez-Castro’s
apartment
at
the
same
time—undercutting Mr. Gomez-Castro’s testimony that
Mr. Morales, unbeknownst to him, went to his apartment
and dropped off the box of methamphetamine; the fact
that Mr. Gomez-Castro initially could not remember any
information about his supposed law enforcement
informant handler; and the fact that Mr. Gomez-Castro,
by his own admission, last assisted local police as an
informant in 2014, well before the drug deal at issue in
September 2015. In light of all this evidence, the
government insists that proper instructions on this issue
“would not have made any difference.” Aplee.’s Resp. Br.
at 36
We likewise conclude that Mr. Gomez-Castro has not
established that the instructional error affected his
substantial rights. The overwhelming balance of the
aforementioned evidence supports the conclusion that Mr.
Gomez-Castro “willfully associate[d] with the criminal
venture” and “aid[ed] such venture through affirmative
Delgado-Uribe, 363 F.3d at 1084.
action.”
Mr. Gomez-Castro insists that all of the conduct in
question just as easily confirms his claim that he acted
only with the intent of gathering information to pass along
to law enforcement authorities. We disagree. His own
conduct and testimony belies that claim. His testimony
that he had repeatedly tried to call Mr. Morales when he
saw the box in his apartment is contradicted by his own
phone records from that day. And he flushed the
methamphetamine in the box down the toilet when the
police first arrived at his residence—suggesting an intent
to conceal or destroy evidence of criminal wrongdoing,
rather than an intent to make such evidence available to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

8

App. 9

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

law enforcement. Cf.
United States v. Williams, 985
F.2d 749, 753 (5th Cir. 1993) (“Evidence of the
defendants’ concerted effort to dispose of the cocaine
supports a reasonable inference that all three men both
associated and participated in possessing the drugs.”).
Furthermore, at no point during his discussion with the
FBI agent on September 12 did he mention his supposed
work as local police informant. Even assuming that Mr.
Gomez-Castro’s exculpatory explanations for such
damning evidence are plausible, they do not convince us
that there is a reasonable probability—that if the jury had
been properly instructed concerning aiding-and-abetting
liability—the result of his trial would have been different.
In sum, given the evidence presented by the government
at trial, Mr. Gomez-Castro simply cannot adequately
establish the third prong of plain error review.

4
Lastly, Mr. Gomez-Castro challenges the district court’s
jury instruction on constructive possession for its failure
to include intent to possess as a required element. But, we
again conclude that Mr. Gomez-Castro has not shown that
this error affected his substantial rights.
The district court instructed the jury that constructive
possession exists when a person “has the ability to
exercise substantial control over an object that he does not
have in his physical custody.” Supp. R., Vol. VI, at 63
(Final Jury Instrs., Instr. No. 30, dated Oct. 17, 2017).
Yet, the United States Supreme Court has expressly held
that “[c]onstructive possession is established when a
person ... has the power and intent to exercise control
*250 Henderson v. United States,
over the object.”
575 U.S. 622, 135 S.Ct. 1780, 1784, 191 L.Ed.2d 874
(2015) (emphasis added). We, too, have expressly
recognized that after the Supreme Court’s holding in
Henderson, “constructive possession requires both
power to control an object and intent to exercise that
United States v. Little, 829 F.3d 1177, 1182
control.”
(10th Cir. 2016) (emphasis added). The government
rightly concedes that the district court’s instructions were
clearly or obviously erroneous in omitting this necessary
component. But, at trial Mr. Gomez-Castro did not object
to these instructions on the ground that they omitted the
necessary intent element.
As a result, we resolve this challenge under the third
prong of the plain error standard. Mr. Gomez-Castro
contends that the erroneous instruction “may very well

have affected the jury’s verdict.” Aplt.’s Reply Br. at 10.
He argues that if the district court had properly instructed
the jury, the jurors might have believed his testimony that
he did not know about the methamphetamine in his
apartment, and thus did not intend to possess it. See Aplt’s
Opening Br. at 24.
United
In response, the government directs us to
States v. Simpson, 845 F.3d 1039 (10th Cir. 2017). In that
case, we faced essentially the same issue as here: whether
the omission of the requisite intent element—that
Henderson prescribes—in jury instructions on
constructive possession was reversible plain error. In
Simpson, we concluded that the omission would not
have affected the outcome of the case—and thus, the
challenge failed under the third prong of plain error
Simpson:
review. As we reasoned in
For Count 1, the jury found not only that Mr. Simpson
had possessed cocaine, but also that he had intended to
distribute the cocaine. Mr. Simpson could intend to
distribute the cocaine only if he intended to possess it,
for he could not distribute something that he didn’t
have. See United States v. Paredes- Rodriguez, 160
F.3d 49, 55 (1st Cir. 1998) (“[I]t simply makes no
sense to assert that the same jury that found that [the
defendant] intended to distribute the cocaine could
have simultaneously found that he did not intend to
possess it.”). Thus, we know that the instructional error
did not affect the outcome on the charge of possession
with intent to distribute.
Because the jury found Mr. Simpson guilty on this
count, we know that the jury would have found that Mr.
Simpson had intended to possess the cocaine. In these
circumstances, the outcome on Count 1 would likely
have stayed the same with a legally correct instruction
on constructive possession. Thus, we reject the
challenge to Count 1 under the third element of the
plain-error test.
Simpson, 845 F.3d at 1060.
We agree with the government that the logic of our
Simpson resolves the present jury
decision in
instruction challenge. By convicting Mr. Gomez-Castro of
possession with intent to distribute, the jury necessarily
found that he intended to distribute the methamphetamine.
And Mr. Gomez-Castro could only have intended to
distribute the methamphetamine, if he also had an
intention of possessing it, “for he could not distribute
Simpson, 845 F.3d at
something that he didn’t have.”
1060. Mr. Gomez-Castro makes no serious attempt to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

9

App. 10

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

distinguish

is material to the principal issues [ ]
involved; and (5) the new evidence
would probably produce an
acquittal in a new trial.

Simpson, nor do we see how he could.

In short, because the jurors found Mr. Gomez-Castro
guilty of possessing methamphetamine with the intent to
distribute, they would have necessarily found that he also
intended to possess the methamphetamine under a proper
instruction on constructive possession. Therefore, Mr.
Gomez-Castro simply cannot *251 show “a reasonable
probability that but for the error claimed, the result of the
Dominguez
proceeding would have been different.”
Benitez, 542 U.S. at 82, 124 S.Ct. 2333.

B
Mr. Gomez-Castro next argues that the district court
abused its discretion in denying his motion for a new trial.
Under the Federal Rules of Criminal Procedure, a
defendant may file a motion for a new trial on the grounds
of “newly discovered evidence.” FED. R. CRIM. P.
33(b)(1). A district court may vacate a judgment and grant
a new trial “if the interest of justice so requires.” FED. R.
CRIM. P. 33(a). Here, we conclude that the alleged
ground for Mr. Gomez-Castro’s motion for a new
trial—his recollection of the identity of Mr.
Johnson—does not amount to permissible “newly
discovered evidence” under Federal Rule of Criminal
Procedure 33(b)(1).
We review a district court’s denial of a motion for a new
United States v.
trial “for an abuse of discretion.”
Quintanilla, 193 F.3d 1139, 1146 (10th Cir. 1999). An
abuse of discretion occurs only if a decision is “based on
an erroneous conclusion of law, a clearly erroneous
finding of fact[,] or a manifest error in judgment.” United
States v. Austin, 231 F.3d 1278, 1282 (10th Cir. 2000)
Webb v. ABF Freight Sys., Inc., 155 F.3d
(quoting
1230, 1246 (10th Cir. 1998)).
We have held that five requirements must be met before
receiving a new trial on the grounds of newly discovered
evidence. A Rule 33 movant in Mr. Gomez-Castro’s
position must show:

(1) the evidence was discovered
after trial; (2) the failure to discover
the evidence was not caused by the
defendant’s lack of diligence; (3)
the new evidence is not merely
impeaching; (4) the new evidence

United States v. Pearson, 203 F.3d 1243, 1274 (10th
Cir. 2000). Mr. Gomez-Castro has seemingly met the
first, third, and fourth requirements; only the second and
fifth requirements are truly at issue. We conclude that Mr.
Gomez-Castro can satisfy neither.
Mr. Gomez-Castro argues that his failure to recall Mr.
Johnson’s name was not caused by his own lack of
diligence for two reasons. First, he claims that it had been
approximately three years since he had worked as an
informant for Mr. Johnson, and, consequently, it was
reasonable that he could not remember his name before
the trial ended. Second, he contends that “[i]t was the
prosecution’s rebuttal case that made the newly
discovered evidence so necessary,” especially the police
lieutenant’s testimony that drew into question Mr.
Gomez-Castro’s claim that he had worked as an
informant. Aplt.’s Opening Br. at 38.
We find neither reason persuasive. Mr. Gomez-Castro
does not contend that he did not have sufficient time to
prepare for trial. And, given that his defense turned in
substantial part on his alleged cooperation with law
enforcement, we are hard pressed to see how Mr.
Gomez-Castro exercised due diligence in only recalling of
his law enforcement handler after the trial. Moreover, Mr.
Gomez-Castro’s motion for a new trial makes clear that
he had investigative resources at his disposal, so—even
though his work for law enforcement may have occurred
some three years prior—he was not obliged to rely on the
specifics of his memory alone in discovering the identity
of his handler.
His second argument fails for a related reason. It was
not—as Mr. Gomez-Castro *252 would have it—the
government’s rebuttal witness, the Ogden Police
lieutenant, that “made the newly discovered evidence so
necessary,” Aplt.’s Opening Br. at 38, but rather the
nature of his defense itself, which relied on his prior
cooperation with law enforcement. Contrary to Mr.
Gomez-Castro’s assertion, this lieutenant did not
foreclose the possibility that an informant could have
worked for the Ogden police without being formally
signed up as such. And, therefore, the lieutenant’s
testimony did not have the necessary effect of
communicating to the jury that Mr. Gomez-Castro was
“lying,” Aplt.’s Opening Br. at 38, when he testified
about his cooperation. Nor did the government’s rebuttal

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

10

App. 11

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

create some new need on Mr. Gomez-Castro’s part to
identify his law enforcement handler. Thus, in our view,
Mr. Gomez-Castro fails to show that his inability to
remember Mr. Johnson’s name before trial was not
Pearson, 203
caused by his own “lack of diligence.”
F.3d at 1274.
Moving to the fifth requirement, we seriously doubt that
the new evidence would probably produce an acquittal in
a new trial. Mr. Gomez-Castro insists that the
government’s case relied heavily on suggesting that he
was untruthful about his work as an informant and, thus,
also untruthful about his purported motives for engaging
in the drug-related activity. As a result, Mr.
Gomez-Castro claims Mr. Johnson’s testimony “would
have so altered at least one juror’s assessment of Mr.
Gomez-Castro’s credibility that the [trial’s] outcome
would have been different.” Aplt.’s Opening Br. at 40.
But this argument simply ignores the abundance of other
evidence—previously discussed at length—that casts
serious doubt on the credibility of Mr. Gomez-Castro’s
claim that he was simply gathering information for local
police. Therefore, we conclude that the district court did
not abuse its discretion in denying Mr. Gomez-Castro’s
motion for a new trial.

C
Finally, Mr. Gomez-Castro argues that the district court
erred in imposing a two-level sentence enhancement for
obstruction of justice. For reasons discussed below, we
conclude that Mr. Gomez-Castro forfeited this objection
by failing to raise it properly before the district court.
Thus, we shall review this decision under the plain error
standard of review; again, this means that Gomez-Castro
must initially show “(1) an error, (2) that is plain, which
means clear or obvious under current law, and (3) that
McGehee, 672 F.3d at 876.
affects substantial rights.”
Viewed under this standard, we hold that the district court
did not commit an error that was “clear or obvious under
current law” when it imposed a two-level sentence
Id. at 876.
enhancement for obstruction of justice.

be the basis for such an enhancement.

Id. § 3C1.1 cmt.

4(B); see also
United States v. Dunnigan, 507 U.S. 87,
92, 113 S.Ct. 1111, 122 L.Ed.2d 445 (1993) (“[T]he
phrase ‘impede or obstruct the administration of justice’
§ 3C1.1 is
includes perjury, and the commentary to
United States v. Copus, 110
explicit in so providing.”);
F.3d 1529, 1536 (10th Cir. 1997) (“Obstruction of justice
includes the offering of perjured testimony at trial.”). A
defendant commits perjury for the purposes of § 3C1.1 of
the Guidelines if he “gives false testimony concerning a
material matter with the willful intent to provide false
Dunnigan, 507 U.S. at 94, 113 S.Ct.
testimony.” *253
1111.
§ 3C1.1 enhancement, “a
Yet, in order to apply the
sentencing court must make a specific finding—that is,
one which is independent of the jury verdict—that the
United States v.
defendant has perjured herself.”
Massey, 48 F.3d 1560, 1573 (10th Cir. 1995). This
finding must encompass “all of the factual predicates of
Dunnigan, 507 U.S. at 95, 113 S.Ct. 1111.
perjury.”
That is, the court must find that a witness “(1) when
testifying under oath, gives false testimony; (2)
concerning a material matter; (3) with willful intent to
provide false testimony, rather than as a result of
Massey, 48
confusion, mistake or faulty memory.”
F.3d at 1573. In determining whether each of these
requirements has been satisfied, “it is preferable for a
district court to address each element of the alleged
Dunnigan,
perjury in a separate and clear finding.”
507 U.S. at 95, 113 S.Ct. 1111. Additionally, “sentencing
judges [must] specifically identify or describe the
perjurious testimony before applying the enhancement
§ 3C1.1.”
Massey, 48 F.3d at 1573. Here,
under
the parties dispute whether the district court’s findings
§ 3C1.1’s requirements.
satisfy
In support of its decision to impose the enhancement, the
district court set forth the following findings:

Section 3C1.1 of the Sentencing Guidelines requires a
two-level upward adjustment to a defendant’s offense
level “[i]f the defendant willfully obstructed or impeded,
or attempted to obstruct or impede, the administration of
justice during the investigation, prosecution, or sentencing
U.S.S.G. § 3C1.1. Perjury can
of the instant offense.”

The testimony that I’ve heard today
shows that this defendant had no
formal arrangement ever with the
Weber/Morgan Task Force, that he
had no formal authorization to
purchase drugs either with his own
money or anyone else’s money,
that any relationship he had with
Don Johnson terminated well

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

11

App. 12

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

before the transaction in this case;
in fact, before five of the related
conduct transactions ...; that there is
no agent or officer named Adam
associated with the Task Force, and
that th[is] was the name that was
given by the defendant at trial.

R., Vol. III, at 556 (Sentencing Hr’g., dated May 30,
2018). Mr. Gomez-Castro argues that these findings fail
Dunnigan
to satisfy the requirements established in
Massey. With the possible exception of the court’s
and
reference to the testimony regarding “Adam,” Mr.
Gomez-Castro argues that the court “failed to identify any
specific testimony by Mr. Gomez-Castro that was both
material and willfully false.” Aplt.’s Opening Br. at 48.
The government disagrees. It argues instead that the
district court’s findings were wholly sufficient because
they encompassed all of the above-mentioned factual
predicates of perjury and adequately identified the
perjurious testimony.
As previously mentioned, we shall review the district
court’s decision to impose the sentence enhancement
under the plain error standard of review. We do so
because we conclude that Mr. Gomez-Castro failed to
properly raise his objection to the enhancement in the
district court. More precisely, the challenge that he now
raises on appeal is not the same challenge that he raised
before the district court. In the district court, Mr.
Gomez-Castro objected to the sufficiency of the evidence
to support an enhancement; that is, he argued that none of
his testimony was perjurious. See Aplt.’s App., Vol. I, at
137 (Def.’s Resp. to PSR, filed May 18, 2018) (“Based on
the post-conviction investigation, Defendant asserts that
he testified truthfully regarding his undercover work with
the narcotic’s task force.”). However, Mr. Gomez-Castro
did not object to the sufficiency of the court’s findings at
the hearing; that is, he did not argue that the district court
failed to “specifically identify or describe the perjurious
§
testimony before applying the enhancement under
Massey, 48 F.3d at 1573; see Aplt.’s App.,
3C1.1.”
Vol. III, at 559 (after announcing its sentence *254 and its
rulings on Mr. Gomez-Castro’s PSR objections, including
§ 3C1.1 enhancement, the
the one concerning the
district court asked “[d]id I miss anything,” and Mr.
Gomez-Castro’s counsel’s answer did not raise the
adequacy of the court’s perjury findings).
This distinction between an objection to the substantive
§ 3C1.1 enhancement—viz., an objection to
basis for a

the sufficiency of the evidence that the defendant
committed perjury—and an objection to the sufficiency of
the court’s factual findings concerning the alleged perjury
Dunnigan and
Massey) is a real one and a
(per
matter of consequence on the question of preservation.
See United States v. Hawthorne, 316 F.3d 1140, 1146–47
(10th Cir. 2003) (addressing separately the defendant’s
§ 3C1.1 enhancement, presented on
“attacks” on the
the distinct “grounds” that, as a matter of substance, the
defendant “did not commit perjury,” and further, that “the
United
district court’s findings were inadequate”); cf.
States v. Mendoza, 543 F.3d 1186, 1191 (10th Cir. 2008)
(“In this case, the government objected to the district
court’s proposed downward variance ... but did so solely
on substantive grounds. A party must specifically object
to the district court’s procedure in order to preserve that
issue for review.”); cf. also United States v.
Hernandez-Lopez, 320 F. App’x 832, 836 n.1 (10th Cir.
2009) (unpublished) (“While defense counsel vigorously
disputed substantive dimensions of his client’s sentence,
after the court explained its reasons for rejecting counsel’s
variance arguments ..., counsel informed the court that it
had no additional objections. It is far from clear whether
counsel’s substantive objections, coming before the
court’s explanations, put the court on notice that counsel
viewed the court’s later explanation for its sentence to be
procedurally inadequate.”). We thus conclude that Mr.
Gomez-Castro forfeited his challenge to the district
§ 3C1.1 findings, and we review the adequacy
court’s
of those findings under the plain error standard of review.
As noted, under the second prong of the plain-error
analysis, Mr. Gomez-Castro must show that the alleged
error was plain, i.e., “clear or obvious under current law,”
McGehee, 672 F.3d at 876. “Generally speaking, we
do not deem an error to be obvious and clear unless it is
contrary to current ‘well-settled law’—that is, to the
current law of the Supreme Court or the Tenth Circuit.”
United States v. Wardell, 591 F.3d 1279, 1298 (10th
Cir. 2009). Mr. Gomez-Castro has not shown that he can
satisfy this standard.
His argument that the district court erred in imposing the
sentence enhancement is based on a misreading of
Massey and
Dunnigan. The standard set forth in
those cases for the required perjury findings is simply not
as stringent as Mr. Gomez-Castro suggests. After all, in
Massey we said that a sentencing court “need not
recite the perjured testimony verbatim,” but rather need
only describe the testimony in a manner such that when
this court “review[s] the transcript ... [it need not]
speculate on what the district court might have believed

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

12

App. 13

United States v. Gomez-Castro, 839 Fed.Appx. 238 (2020)

was the perjurious testimony.”
Massey, 48 F.3d at
1574. Weighed against this standard, we cannot say that
the district court’s findings were clearly or obviously
erroneous. The court effectively identified as perjurious
Mr.
Gomez-Castro’s
statements
regarding
his
arrangement with the Weber-Morgan Task Force, the
timing of his cooperation relationship with Don Johnson,
his statements regarding a Task Force officer named
Adam, and the purported basis for his drug purchases.
These findings—viewed in totality—do not clearly
require us to “speculate on what the district court might
*255 have believed was the perjurious testimony.”
Massey, 48 F.3d at 1574. Stated otherwise, it is not
clear or obvious that these findings are erroneous under
Dunnigan and
Massey; therefore, under plain error
review, they pass muster.
We underscore that, under the plain error standard of
review, the burden of proof is not on the government to
show that the perjury findings fully comply with the
Dunnigan and
Massey.
requirements set forth in
Instead, Mr. Gomez-Castro must show that the findings
are clearly or obviously contrary to this precedent. This he
cannot do. The district court did not commit an error that
End of Document

was “clear or obvious under current law” when it imposed
a two-level sentence enhancement for obstruction of
McGehee, 672 F.3d at 876.
justice.

IV
For the foregoing reasons, we hold that the district court
did not commit reversible error in its jury instructions, did
not abuse its discretion in denying Mr. Gomez-Castro’s
motion for a new trial, and did not commit reversible
error in applying an obstruction-of-justice enhancement
U.S.S.G. § 3C1.1 to Mr. Gomez-Castro’s
under
Guidelines sentence. Thus, we AFFIRM the district
court’s judgment as to Mr. Gomez-Castro’s conviction
and sentence.
All Citations
839 Fed.Appx. 238

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A

13

App. 14

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 1

CASE NO. 18-4090
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)

Plaintiff-Appellee
v.
LUIS GOMEZ-CASTRO,
Defendant-Appellant

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
The Honorable David Nutter, District Judge
D.C. No. Case No. 16-CR-267-DN-1
MR. GOMEZ-CASTRO’S PETITION FOR REHEARING

Kathleen A. Lord
LORD LAW FIRM, LLC
1544 Race Street
Denver, Colorado 80206
(303) 394-3302
Counsel for Luis Gomez-Castro

1

APPENDIX B
App. 15

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 2

Pursuant to Fed. R. App. P. 40 and 10th Cir. R. 40, Mr. Gomez-Castro
respectfully asks this Court to grant rehearing on the following grounds.
I.
The trial court committed reversible plain error when it: (1) told
the jurors, including the alternate juror, that they could discuss the case and
engage in pre-deliberations; (2) failed to inform the jury of the intent necessary
to establish aider and abettor liability; and (3) failed to instruct the jury that
constructive possession requires the intent to control the item(s) possessed.
A.

Pre-Deliberation Instructions
1.

The Court overlooks a significant problem with these instructions.

The district court repeatedly instructed the jurors, including the alternate
juror, that they could discuss the case before deliberations so long as all thirteen of
them were in the jury room.

Opinion at 7. These instructions, though not objected

to, were challenged on two grounds.

See Op. Brief at 16-17.

First, the

instructions expressly permitted jurors to discuss evidence prematurely, i.e., before
all the evidence was admitted, before the arguments of counsel, and before the court
instructed the jury on the law.

And, second, the instructions permitted the jurors to

discuss the evidence with the alternate juror, an individual who ultimately would
not be a juror charged with deliberating and deciding guilt or innocence.
This Court’s opinion, like the government’s brief, overlooks entirely this
second, distinct problem with the court’s pre-deliberation instructions, which permit
the alternate to discuss the case with the twelve actual jurors who would ultimately
2

App. 16

Appellate Case: 18-4090

decide the case.

Document: 010110490423

Date Filed: 03/08/2021

Page: 3

See Opinion at 15-17.

2. Mr. Gomez-Castro established that the pre-deliberation
instructions were clear and obvious error.
This Court rejected Mr. Gomez-Castro’s plain error challenge to the predeliberation instructions because it found he failed to establish that any error was
“clear or obvious under current law.”

Id. at 16.

In so ruling, this Court appears

to have overlooked substantial authority cited by Mr. Gomez-Castro that supports
his premise that a jury instruction which affirmatively allows jurors and an alternate
to engage in premature deliberations is clear and obvious error.
This Court notes that Mr. Gomez-Castro cites to only one case in his opening
brief for his premise that the challenged instructions were “contrary to longstanding
and well-established law.”
329 (8th Cir.1945).

Id., citing Winebrenner v. United States, 147 F.2d 322,

But Mr. Gomez-Castro’s initial brief also cites to this Circuit’s

pattern instruction, which likewise reflects the well-established rule that jurors
should be admonished to refrain from discussing a case until they have all the
evidence, arguments and instructions.

Opening Brief at 17, n.2.

Mr. Gomez-Castro provided additional support for the proposition that courts
should always “admonish juries at the outset of trial not to discuss the case with
anyone before the conclusion of trial.” United States v. Resko, 3 F.3d 684, 689 (3d
Cir.1993), citing United States v. Wiesner, 789 F.2d 1264, 1269 (7th Cir.1986)
3

App. 17

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 4

(“Admonishing the jury [regarding premature deliberations] is a critical and
important duty and cannot be over-emphasized.”) (multiple additional citations
omitted); see also United States v. Jadlowe, 628 F.3d 1, 18-19 (1st Cir.2010); see
also United States v. Hart, 729 F.2d 662 at n. 10 (10th Cir.1984)(courts should
admonish jurors to not discuss the case with themselves or with others during the
course of the trial), citing as an illustrative instruction 1 E. Devitt & C. Blackmar,
Federal Jury Practice and Instructions §10.14, at 273–74 (3d ed.1977).
Given the courts’ long-recognized requirement of admonishing jurors to refrain
from premature deliberations, the court’s affirmative pre-deliberation instructions that
jurors may do the opposite, i.e., discuss the case before the close of evidence, qualifies
as clear and obvious error.
B.

Erroneous Aiding and Abetting Instruction

This Court finds the aiding and abetting instruction was obvious error, since it
omitted the requisite intent for aider and abettor liability. Opinion at 19.

The Court,

however, found that this error did not affect Mr. Gomez-Castro’s substantial rights,
because the “overwhelming balance of the … evidence supports the conclusion that
Mr. Gomez-Castro ‘willfully associate[d] with the criminal venture’ and ‘aid[ed]
such venture through affirmative action.’” Id. at 20-21.
The Court should reconsider this ruling because it was for a properly
4

App. 18

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 5

instructed jury to assess the relative weight of the disputed evidence and for it to
decide whether the government had proven all the elements of the offense.

Since

the government charged aider and abettor and requested the jury be instructed on
such liability, it was incumbent on the court to properly instruct the jury as to what
the government must prove to establish guilt based on aider and abettor liability.
When, as here, a defendant testifies and disputes that he has the requisite
intent, instructions that do not require the jury to find the requisite culpable mental
state beyond a reasonable doubt, and which allow the jury to convict even if they
believe the defendant’s testimony that he lacked the required intent, do affect the
defendant’s substantial rights and, thus, constitute reversible plain error.
C.

Erroneous Constructive Possession Jury Instruction

It is undisputed that this instruction, too, was plainly erroneous because it
omitted the required intent, in this instance the intent to exercise control over the
charged methamphetamine.

The Court, however, relies on United States v.

Simpson, 845 F.3d 1039 (10th Cir.2017) to find Mr. Gomez-Castro did not establish
this error affected his substantial rights.

In so holding, the court writes that “Mr.

Gomez-Castro makes no serious attempt to distinguish Simpson, nor do we see how
he could.”

Opinion at 24.

It appears the Court has overlooked just such an attempt by Mr. Gomez5

App. 19

Appellate Case: 18-4090

Castro.

Document: 010110490423

See Reply Brief at 12-14.

Date Filed: 03/08/2021

Page: 6

In Simpson, the jury found the defendant

guilty of possession with intent to distribute.

In doing so, the jury necessarily

found the defendant intended to distribute the cocaine.

Since the defendant could

only intend to distribute something he intended to possess, i.e., exercise control
over, the jury’s findings necessarily established the requisite intent for constructive
possession.

Thus, the Simpson Court could be confident that the instructional

error did not affect the outcome on the charge of possession with intent to
distribute.
In contrast, because of the erroneous aider and abettor instruction in this case,
the jury was not required to find that Mr. Gomez-Castro intended to distribute the
charged drugs.

Thus, the Court errs when it concludes, based on the logic of

Simpson, that “[b]y convicting Mr. Gomez-Castro of possession with intent to
distribute, the jury necessarily found that he intended to distribute the
methamphetamine.”

Opinion at 24.

The jury in this case, as instructed on aider

and abettor liability, was not required to find an intent to distribute.

And without

such a finding, this Court cannot logically conclude that the jury necessarily found
the required intent for constructive possession.
This case is distinguishable from Simpson, because the jury’s determination
that Mr. Gomez-Castro was guilty of possession with intent to distribute was tainted
6

App. 20

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 7

by the erroneous aider and abettor instruction, which omitted the required mens rea
and did not require the jury to find the intent necessary for possession with intent to
distribute.

Compare Simpson, supra at 1059.

Since both Mr. Gomez-Castro’s intent to distribute and intent to possess were
disputed issues at trial, the failure to properly instruct the jury on these critical
elements may very well have affected the jury’s verdict.

Unlike the unquestioned

jury finding on possession with intent to distribute in Simpson, the findings
underlying the jury’s verdict in Mr. Gomez-Castro do not necessarily support the
findings required for constructive possession, i.e., that Mr. Gomez-Castro had the
requisite knowledge of what was in the box in his apartment, combined with the
intent to exercise control over and distribute the methamphetamine in the box. See
Henderson v. United States, 135 S.Ct. 1780 (2015); United States v. Little, 829 F.
3d 1177 (10th Cir.2019).
Moreover, as Mr. Gomez-Castro also argued in his reply brief, the court’s
analysis in Simpson actually lends support to his claim of reversible plain error.
The Simpson Court looked at three categories of convictions: one count of
possession of drugs with intent to distribute, which is discussed above, two counts
of unlawful possession of an unregistered shotgun and ammunition, and ten counts
of unlawful possession of handguns and ammunition.

See id. at 1061-1063.

7

App. 21

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 8

With respect to the last category, the court found the third element of reversible
plain error because others had access to the items and “[a] plainly erroneous jury
instruction affects a defendant’s substantial rights if the instruction concerns a
principal element … of the crime, thus suggesting that the error affected the
outcome of the case.”

Id. at 1061, quoting United States v. Duran, 133 F.3d 1324,

1330 (10th Cir.1998) (internal quotation marks omitted).

In this case, the primary,

if not only disputed element was whether Mr. Gomez-Castro had the requisite intent
to possess or distribute the methamphetamine found in his apartment.
Although the government in Simpson pointed to evidence that would support
a finding of the requisite intent for unlawful possession of handguns, the court
noted that the pertinent evidence had been impeached and the jury was free to credit
whichever testimony it chose to believe.

See id. at 1062.

The same is true here.

The Simpson Court also found the fourth element required for plain error-that the “instructional error seriously affected the fairness, integrity or public
reputation of the proceedings.” Id.

The failure to instruct on an essential element

of the crime satisfies the fourth element of the plain-error test because the
government’s evidence was neither overwhelming nor uncontroverted. Id. at 1063,
citing United States v. Wolfname, 835 F.3d 1214, 1223 (10th Cir.2016).
In this case, the jury could have chosen to believe the defendant’s testimony
8

App. 22

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 9

that he did not know about the methamphetamine in the box left by informant
Reuben Morales and, so, did not intend to exercise dominion over the contraband.
However, given the erroneous instruction, this testimony would not provide a
defense to possession with intent to distribute because it is not inconsistent with the
“ability” to control the drugs, which is all the erroneous constructive possession
required.

As instructed, the jury was not required to find the necessary intent to

control the drugs, the very intent that Mr. Gomez-Castro denied.
Simpson is also instructive in the manner in which the court found no
reversible plain error vis-à-vis the two counts of unlawful possession of a shotgun.
On these counts, the court ruled the defendant could not show a reasonable
likelihood of a different outcome due to the erroneous instruction and the
undisputed testimony at trial.

See id. at 1061.

Specifically, police discovered a

loaded shotgun in Simpson’s garage, and an officer testified that Simpson had
admitted holding the shotgun and trying to sell it.

“Simpson did not impeach the

officer or present any evidence contradicting the officer’s testimony.”

Id.

In

contrast, at Mr. Gomez-Castro’s trial, the relevant evidence of possession with the
required intent to possess was much disputed.

The erroneous instruction denied

Mr. Gomez-Castro a defense based on his testimony that he did not intend to
possess or intend to distribute the methamphetamine found in his apartment.
9

App. 23

Appellate Case: 18-4090

D.

Document: 010110490423

Date Filed: 03/08/2021

Page: 10

The Aggregate Prejudicial Effect of Instructional Error
Requires Reversal.

This Court did not consider whether, as Mr. Gomez-Castro argued on appeal,
the aggregate prejudicial effect of the three challenged instructions required
reversal. See Opening Brief at 26-27; Reply Brief at 13.
While the government’s case was sufficient to prove guilt, it was not bullet
proof, as jurors are free to believe parts or all of any witness’s testimony, and Mr.
Gomez-Castro’s testimony contradicted the government’s case. Under these
circumstances, the district court’s failure to instruct the jury on two required and
disputed intents was serious error and allowed the jury to convict without requiring
the government to prove all elements of the crime beyond a reasonable doubt.
In reviewing the claims of instructional error “individually,” Opinion at 12,
Section III(A), the Court fails to consider whether the erroneous aider and abettor
instruction undermines its conclusion vis-à-vis the constructive possession
instruction that the jury necessarily found the defendant possessed the intent to
distribute drugs and, thus, necessarily had the requisite intent for constructive
possession--the intent to exercise control over the drugs.

If the Court were to look

at the two clearly erroneous instructions together, it should reach a different result as
to whether Mr. Gomez-Castro has shown the error(s) affected his substantial rights

10

App. 24

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 11

by eliminating two disputed intent elements from the jury’s consideration and
allowing for conviction, even if the jury believed Mr. Gomez-Castro’s testimony.
III. The §3C1.1 two-level enhancement for obstruction of justice is not
supported by adequate findings by the court or sufficient proof by the
government.
This Court should reconsider its application of plain error review and vacate
Mr. Gomez-Castro’s sentence, because the prosecution failed to establish the
§3C1.1 enhancement, and the court did not (1) find that Mr. Gomez-Castro gave
false testimony, concerning material matters with willful intent to provide false
testimony or (2) identify any perjured testimony.
When, as here, the defendant objects to the application of §3C1.1, denies any
perjury and presents evidence that supports the veracity of his trial testimony, he
has preserved his objection to the §3C1.1 enhancement. Many appellate cases
review the adequacy of a court’s findings vis-à-vis an obstruction of justice
enhancement without applying plain error review and without mentioning whether
the defendant objected to the court’s findings.

See, e.g., United States v. Hawthorne,

316 F.3d 1140, 1145–47 (10th Cir.2003); United States v. Yost, 24 F.3d 99, 106-107

(10th Cir.1999); United States v. Copus, 110 F.3d 1529, 1537 (10th Cir.1997);
United States v. Smith, 81 F.3d 915, 918-919 (1996).

11

App. 25

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 12

While Mr. Gomez-Castro has argued that the court’s findings are inadequate
to support the enhancement, his quarrel is with the application of the two-level
enhancement to his sentence on the basis of perjury, an issue that was properly
before the district court. “By ‘informing the court’ of the ‘action’ he ‘wishes the
court to take,’ Fed. Rule Crim. Proc. 51(b), a party ordinarily brings to the court’s
attention his objection to a contrary decision.”
States, 140 S. Ct. 762, 777 (2020).

Holguin-Hernandez v. United

Although the Court in Holguin-Hernandez did

not consider “what is sufficient to preserve a claim that the trial court used improper
procedures in arriving at its chosen sentence,” as the government asked it to do, the
Court’s guiding, common-sense notion that an issue is preserved when the claim is
brought to the court’s attention has applicability here.
By denying perjury and objecting to the §3C1.1 enhancement, Mr. GomezCastro put the government on notice of what it must prove and put the court on
notice of the findings it must make pursuant to controlling precedent.

See Opinion

at 29-30 for the required findings.
A.   This Court addressed only a portion of the sentencing issue raised by
Mr. Gomez-Castro.
Mr. Gomez-Castro challenged the §3C1.1 enhancement on the ground it was
“not supported by adequate findings or proof.”
added).

Opening brief at 41 (emphasis

His core argument was that when, as happened here, a defendant objects
12

App. 26

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 13

to the application of an obstruction of justice enhancement based on allegations of
perjury, “the court must find, and the government must prove by a preponderance
of the evidence, that the defendant willfully testified falsely as to material matters”
and, in this circuit, the court must also identify the testimony it believes to be
perjurious.

Id. (emphasis added and citations omitted).

This Court’s decision

deals only with the district court’s findings and does not address whether the
prosecution met its burden of establishing that Mr. Gomez-Castro committed
perjury.

See Opinion at 28.

Here, the government was on notice that it was required to prove specific
incidents of perjury and it failed even to identify any such incidents.

Moreover,

the government’s cross-examination of Don Johnson at sentencing did not show
that Mr. Gomez-Castro willfully testified falsely as to any material fact, as required
for application of the 3C1.1 enhancement.

See Argument III, Opening and Reply

Briefs.
There has been no argument that Mr. Gomez-Castro’s challenge to the
prosecution’s proof is not preserved.

It was preserved when he objected to the

obstruction of justice enhancement and presented evidence at sentencing to refute
the inference of perjury.

13

App. 27

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 14

B.   This Court erroneously applied plain error review.
As indicated above, a defendant’s argument that the district court’s findings
do not support the application of §3C1.1 should not be subject to plain error review
when the defendant has objected to the applicability of the enhancement on the
basis that he has not perjured himself.

On appeal, the question is whether the

court’s findings support the enhancement.

If they do not, or if they are insufficient

to permit adequate appellate review, the sentence should be vacated and the cause
remanded.
1.   The Court sua sponte raised the issues of preservation and plain error
review at oral argument.
In its brief, the government never claimed that Mr. Gomez-Castro failed to
preserve this issue or that plain error review applied. Answer Brief at 52-57.
Rather, it agreed that the district court’s legal interpretation of the Guidelines was
subject to de novo review and its factual findings for clear error.

Id. at 52.

The

government’s failure to raise any issue of preservation is understandable since it
was clear to the parties that Mr. Gomez-Castro objected to the application of the
§3C1.1 enhancement and this issue was litigated at sentencing.

See Vol.II at 343,

PSR (probation officer notes defense objection and defers resolution of the §3C1.1
enhancement to the court). Thus, the parties understood the issue of whether the
district court had properly found the enhancement to be preserved.
14

App. 28

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 15

The question of preservation was raised by this Court sua sponte for the first
time during oral argument, one that was set by the court after both parties indicated
that Mr. Gomez-Castro’s appeal could be decided without argument.

See

https://www.ca10.uscourts.gov/oralarguments/18/18-4090.MP3 at 11:30-29:27; 46:24-47:27.

At argument, the government admitted that its motion requesting the twopoint obstruction of justice enhancement was “sparce” and that it had not raised any
issue regarding preservation.1 However, government counsel also indicated that, in
preparing for the argument, counsel had found some unpublished cases which
agreed with the court’s argument that a defendant must object after the court makes
its findings to preserve an objection that the court’s findings were inadequate.2
circa 14:44.

Id.

When Judge Holmes directly asked whether the government agreed

with him that this issue was not preserved, counsel for the government agreed. Id.

1

The government’s pleading asserted only that “Defendant testified at trial regarding
material issues in the case; on cross-examination and during its rebuttal case, the
government established that defendant’s testimony was not truthful.” Vol.I at 131.

2

The unpublished cases referred to by the government were never identified at oral
argument or submitted as supplemental authority. In addition, this Court’s decision
on forfeiture does not cite any case that specifically requires a defendant to object to
the court’s findings vis-à-vis perjury and the enhancement
15

App. 29

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 16

In light of this procedural history, there is a real question whether the
government waived any argument that Mr. Gomez-Castro forfeited his right to raise
this claim.
2.   In applying the plain error standard of review, the Court did not
consider whether the government waived any argument that Mr.
Gomez-Castro forfeited his right to challenge the court’s findings.
This Court recognizes that the government’s failure to raise forfeiture may
waive any right to assert forfeiture or obtain plain error review.

See, e.g., United

States v. Rodebaugh, 789 F.3d 1281, 1306-08, 1314-1318 (10th Cir.2015); United
States v. DeVaughn, 694 F.3d 1141 (10th Cir. 2012); see also United States v.
Menesses, 962 F.2d 420, 426 (5th Cir.1992)(refusing to recognize the government’s
waiver argument when argument not made until oral argument, and deciding “[t]he
government cannot, at this late date, alter its proposed standard of review”).
Here, the government has suggested no reason why its waiver should not
preclude the application of forfeiture and plain error review in this case.
C.   The Section 3C1.1 two level enhancement should be reversed even if
plain error review is applied.
Since the question of issue preservation, forfeiture and plain error review was
never raised by the government, it was not briefed by the parties.

Instead, as

discussed above, the parties addressed these issues solely in response to the court’s
questions at oral argument.
16

App. 30

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 17

This Court’s determination that the district court’s findings do not constitute
clear error overlooks United States v. Medina-Estrada, 81 F.3d 981, 987 (10th
Cir.1996). To prove this point, Mr. Gomez-Castro will quote at length from
Medina-Estrada.
“In order to apply the § 3C1.1 enhancement, it is well-settled that

a sentencing court must make a specific finding—that is, one
which is independent of the jury verdict—that the defendant has
perjured [himself].” United States v. Massey, 48 F.3d 1560, 1573
(10th Cir.) …. “A finding of perjury in support of a sentence
enhancement for obstruction of justice must contain two
components.” United States v. Smith, 81 F.3d 915, 918 (10th
Cir.1996). First, the finding must encompass all of the factual
predicates of perjury as required by United States v.
Dunnigan, 507 U.S. 87, 94 (1993). The factual predicates of
perjury are that a defendant (1) while testifying under oath or
affirmation, gave false testimony, (2) concerning a material
matter, (3) with willful intent to provide false testimony, rather
than as a result of confusion, mistake or faulty memory. Smith, 81
F.3d at 918; Massey, 48 F.3d at 1573. Second, the finding must
specifically identify the perjured testimony. Smith, 81 F.3d at
918; United States v. Arias–Santos, 39 F.3d 1070, 1077 (10th
Cir.1994). The district court need not recite the perjured
testimony verbatim. Rather, [t]he district court may generally
identify the testimony at issue from his or her trial notes or
memory and it is sufficient if such testimony is merely described
in substance so that when we review the transcript we can
evaluate the Dunnigan findings of the elements of perjury against
an identified line of questions and answers without having simply
to speculate on what the district court might have believed was
the perjurious testimony. Massey, 48 F.3d at 1574. See
also United States v. Owens, 70 F.3d 1118, 1132 (10th
Cir.1995)(citing Massey ).

17

App. 31

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 18

Here the district court's findings adequately identify MedinaEstrada's perjurious trial testimony. However, the findings fail to
set forth all of the requisite factual predicates of perjury.
Specifically, the district court did not find, even generally, that
Medina–Estrada was untruthful about a material matter nor that
he willfully intended to provide false testimony.
See Smith, 81 F.3d at 919 (findings insufficient because missing
findings of materiality and willfulness); Massey, 48 F.3d at 1573
(“[m]issing from the district court's findings are the necessary
findings on materiality and willfulness”).
Here, the district court's finding of perjury did not encompass all
of the requisite factual predicates. Accordingly, the district court's
finding of perjury was clear error.
The district court’s findings in Mr. Gomez-Castro’s case were at least as
deficient as those in Medina-Estrada and, thus, constitute clear error and meet the
second prong of plain error review. See Opening Brief at 46-48; Reply Brief at 1617.
In Medina-Estrada, the “clear error” did not require remand because the
district court had made clear that it would impose the same sentence even if there
had been no enhancement for obstruction.

The same is not true in Mr. Gomez-

Castro’s case where the court imposed the minimum possible Guideline Sentence,
given the two-point §3C1.1 enhancement. Under these circumstances, Mr. GomezCastro has established that his substantial rights have been affected and his sentence
must be vacated.

18

App. 32

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 19

CONCLUSION
Mr. Gomez-Castro asks that this Court grant rehearing for the reasons set
forth above and in the briefs.
LORD LAW FIRM, LLC
s/ Kathleen A. Lord
KATHLEEN A. LORD
1544 Race St.
Denver, Colorado 80206
(303) 394-3302
e-mail Addresses: kathleen@klordlaw.com

CERTIFICATE OF COMPLIANCE WITH RULE 32(a)(7)
Section 1.

Word count

1.This petition complies with the type-volume limitation of Fed. R. App. P. 32 and
40, as it contains 3858 words. I relied on my word processing program to obtain
the count and it is MICROSOFT WORD 2010.
2.This petition complies with the typeface requirements of Fed. R. App. P. 32 (a)(5)
and the type style requirements of Fed. R. App. P. 32(a)(6) because it has been
prepared in proportionally spaced typeface using MICROSOFT WORD 2010 in
Times New Roman 14-point font.
I certify that the information on this form is true and correct to the best of my
knowledge and belief formed after a reasonable inquiry.
Date:

March 8, 2021
s/ Kathleen A. Lord
KATHLEEN A. LORD
19

App. 33

Appellate Case: 18-4090

Document: 010110490423

Date Filed: 03/08/2021

Page: 20

CERTIFICATE OF DIGITAL SUBMISSION
I hereby certify that with respect to the foregoing petition:
(1)

all required privacy redactions have been made;

(2)

if required to file additional hard copies, that the ECF submission is an
exact copy of those documents;

(3)

the ECF submission was scanned for viruses with the most recent
version of a commercial virus scanning program McAfee Virus
Protection and, according to the program, is free of viruses.
s/ Kathleen A. Lord
CERTIFICATE OF SERVICE

I hereby certify that on March 8, 2021, I electronically filed this petition
using the CM/ECF system, which will send notification of this filing to the
following e-mail addresses:
Jennifer P. Williams, Assistant United States Attorney
Jennifer.Williams2@usdoj.gov
s/ Kathleen A. Lord
KATHLEEN A. LORD

20

App. 34

Appellate Case: 18-4090

Document: 010110498740

Date Filed: 03/24/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

March 24, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
No. 18-4090
(D.C. No. 2:16-CR-00267-DN-1)
(D. Utah)

v.
LUIS GOMEZ-CASTRO,

Defendant - Appellant.
_________________________________
ORDER
_________________________________
Before HOLMES, MURPHY, and PHILLIPS, Circuit Judges.
_________________________________
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

APPENDIX C

App. 35

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1462 Page 1 of 7

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet I

UNITED STATES DISTRICT COURT
District of Utah
)
JUDGMENT IN A CRIMINAL CASE
)
)
)
Case Number: DUTX 2:16-CR-00267-001 ON
)
)
USM Number: 24768-081
)
Steven Killpack
)
11:·~.: ..
Defendant's
Attorney
)
::":J

UNITED STATES OF AMERICA

v.
LUIS GOMEZ-CASTRO

THE DEFENDANT:
D pleaded guilty to count(s)

'

.•..

D pleaded nolo contendere to count(s)

-·

after a plea of not guilty.

I
l

(.')

'

..•...
(

L ...
1;::::·::

i

1 of the Indictment

....
'•
....

..,,·:~-H

)

.....
'
"~
l

<

I

which was accepted by the court.

Ill! was found guilty on count(s)

l~/J

c:;

i

'

(.)

..
.. -1

1'..
'1

··(;,

,,._ ~·1

.-:~

.

..
' .." I
'
---------------------~'"--\---~,------~----~
<:::J
_........
(J'l

I

I

The defendant is adjudicated guilty of these offenses:

r·•

~~·

....

..~.::"'

en

c::

M'"•:'o•

...,•• ,,,1

-"-1

21U.S.C.§841(b)(1)(B)

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

__7___ of this judgment. The sentence is imposed pursuant to

D The defendant has been found not guilty on count(s)
D Count(s)

D is

0

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defenaant must notify the court and United States attorney of material clianges in econonuc circumstances.

5/30/2018
Date of Imposition of Judgment

~--Signature ofJudge

David Nuffer, U.S. District Court
Name and Title of Judge

D••

I

~ HJ (fj

APPENDIX D

App. 36

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1463 Page 2 of 7

AO 245B (Rev. 02/18) Judgment in Criminal Case
Sheet 2 - Imprisonment
Judgment -

Page

2

of

7

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 ON

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
151 months. Upon release from custody of the Federal Bureau of Prisons or U.S. Marshals Service, the defendant shall be
remanded to the custody of the Federal Bureau of Immigration and Customs Enforcement for deportation proceedings.

Ill

The court makes the following recommendations to the Bureau of Prisons:

Defendant be designated and housed at a BOP facility located as close to Utah as possible to facilitate family visitation either in Colorado or Arizona.

llZl The defendant is remanded to the custody of the United States Marshal.
D The defendant shall surrender to the United States Marshal for this district:

D at

D p.m.

on

D as notified by the United States Marshal.

D

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D before 2 p.m. on
D as notified by the United States Marshal.
D as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

to

at --------------~ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By ----------------------~
DEPUTY UNITED STATES MARSHAL

App. 37

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1464 Page 3 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment-Page _ _
3_ of

7

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 ON

SUPERVISED RELEASE
60 months.
Upon release from imprisonment, you will be on supervised release for a term o f · , _ - - - - - - - - - - - - - - - - - - - - -

MANDATORY CONDITIONS

1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.

1J1

The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse.

(check if applicable)

4.

D

You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of

5.

Ill

You must cooperate in the collection of DNA as directed by the probation officer.

6.

D You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as

restitution.

(check if applicable)
(check if applicable)

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

D You must participate in an approved program for domestic violence.

(check

if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

App. 38

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1465 Page 4 of 7

AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3A - Supervised Release
Judgment-Page _ _ _ _ _ of - - - ' - - - - - -

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 ON

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.
14.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware ofa change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not connnunicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.
You must submit your person, residence, office or vehicle to search, conducted by the probation office at a reasonable time and in a
reasonable manner based upon reasonable suspicion of contraband or evidence of a violation of a condition of release; failure to submit
to a search may be grounds for revocation; you must warn any other residents that the premises may be subject to searches pursuant to
this condition

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgn1ent containing these conditions. For. further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

App. 39

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1466 Page 5 of 7

AO 245B(Rev. 02/18) Judgment in a Criminal Case
Sheet 3D - Supervised Release
Judgment-Page

5

of

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 ON

SPECIAL CONDITIONS OF SUPERVISION
1. If deported, the defendant shall not illegally reenter the United States. If the defendant returns to the United States
during the period of supervision, or is not deported, he is instructed to contact the U.S. Probation Office in the District of
Utah within 72 hours of arrival in the United States, or release from custody.

App. 40

7

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1467 Page 6 of 7

AO 245B (Rev. 02/18)

Judgment in a Criminal Case
Sheet 5 - Criminal Monetaty Penalties
Judgment -

Page -~6~_

of

7

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 ON

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 100.00

$ 0.00

Fine
$ 0.00

Restitution

$ 0.00

D The determination of restitution is deferred until - - - - . An Amended Judgment in a Criminal Case (AO 245C) will be entered
after such determination.

D The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(1), all nonfederal victims must be paid
before the United States is paid.

TOTALS

0.00

$

$ - - - - - - - -0.00
--

D

Restih1tion amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restih1tion or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(£). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

D

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

D the interest requirement is waived for the
D the interest requirement for the

D

fine

D fine
D

D restihltion.

restih1tion is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No.

114-22.
**Findings for the total amount oflosses are required under Chapters 109A, 110, 1 lOA, and 113A of Title 18 for offenses conm1itted on or
after September 13, 1994, but before April 23, 1996.

App. 41

Case 2:16-cr-00267-DN Document 140 Filed 06/01/18 PageID.1468 Page 7 of 7
AO 245B (Rev. 02118) Jtidgment in a Criminal Case
Sheet 6 - Schedule of Payments
Judgment - Page

7

of

7

DEFENDANT: LUIS GOMEZ-CASTRO
CASE NUMBER: DUTX 2:16-CR-00267-001 DN

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

ili

Lump sum payment of$
D
D

100.00

not later than
in accordance with D

c,

due immediately, balance due

D

D,

D

, or
E, or

B

D

Payment to begin immediately (may be combined with

C

D

Payment in equal

D

D

Payment in equal

D F below; or
DC,

DD, or

D F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

over a period of
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

D

(e.g., 30 or 60 days) after release from
Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

D

Special instrnctions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

D

The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restihltion principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

App. 42

